<html>
<title> - BIO-SECURITY COORDINATION</title>
<body><pre>[Senate Hearing 109-619]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-619
 
                       BIO-SECURITY COORDINATION

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON RESEARCH, NUTRITION, AND GENERAL LEGISLATION

                                 of the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION


                               __________

                            January 9, 2006

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
30-234                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                   SAXBY CHAMBLISS, Georgia, Chairman

RICHARD G. LUGAR, Indiana            TOM HARKIN, Iowa
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAT ROBERTS, Kansas                  MAX BAUCUS, Montana
JAMES M. TALENT, Missouri            BLANCHE L. LINCOLN, Arkansas
CRAIG THOMAS, Wyoming                DEBBIE A. STABENOW, Michigan
RICK SANTORUM, Pennsylvania          E. BENJAMIN NELSON, Nebraska
NORM COLEMAN, Minnesota              MARK DAYTON, Minnesota
MICHEAL D. CRAPO, Idaho              KEN SALAZAR, Colorado
CHARLES E. GRASSLEY, Iowa

            Martha Scott Poindexter, Majority Staff Director

                David L. Johnson, Majority Chief Counsel

              Steven Meeks, Majority Legislative Director

                      Robert E. Sturm, Chief Clerk

                Mark Halverson, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

BIO-SECURITY COORDINATION........................................    01

                              ----------                              

                        Monday, January 9, 2006
                    STATEMENTS PRESENTED BY SENATORS

Santoruma, Hon. Rick, a U.S. Senator from Pennsylvania, Chairman, 
  Subcommittee on Research, Nutrition, and General Legislation...    01
Conner Hon. Charles, Deputy Secretary of Agriculture, USDA, 
  Washington, DC.................................................    04
                              ----------                              

                               WITNESSES
                     Panel I - Government Officials

Conner, Hon. Charles Deputy Secretary of Agriculture, USDA, 
  Washington, DC.................................................    04
Azar, Alex M. II, Esquire, Deputy Secretary, Health and Human 
  Services, Washington, DC.......................................    06
Wolff, Dennis, Secretary, Pennsylvania Department of Agriculture, 
  Harrisburg, Pennsylvania.......................................    09

                    Panel II - Research Institutions

Goldstein, Bernard D. Dr., Professor, Graduate School of Public 
  Health, University of Pittsburg, Pittburg, Pennsylvania........    19
Smith, Gary Dr., Professor of Veterinary Medicine, Kennett 
  Square, Pennsylvania...........................................    17
Steel, Robert Dean, College of Agriculture Sciences at Penn State 
  University, University Park, Pennsylvania......................    15

                      Panel III - Private Industry

Adams, James, President, Wenger Feeds, Rheems, Pennsylvania......    23
Gardner, Lew, Dairy Producer, Galeton, Pennsylvania..............    27
Masser, Keith, President, Pennsylvania Cooperative Potato 
  Growers, Sacramento, Pennsylvania..............................    28
Peechatka, Walt, Executive Vice President, PennAg Industries, 
  Harrisburg, Pennsylvania.......................................    25
                              ----------                              

                                APPENDIX

Prepared Statements:
    Conner Hon. Charles..........................................    36
    Adams, James.................................................   117
    Azar, Alex M. II.............................................    65
    Gardner, Lew.................................................   125
    Goldstein, Bernard D. Dr.....................................   114
    Masser, Keith................................................   131
    Peechatka, Walt..............................................   122
    Smith, Gary Dr...............................................   108
    Steele, Robert...............................................   102
    Wolff, Dennis................................................    97
Document(s) Submitted for the Record:
    Statement by Shaffer, Carl T., Pennsylvania Farm Bureau 
      President..................................................   134
Questions and Answers Submitted for the Record:
    Harkin, Hon. Tom.............................................   138



                       BIO-SECURITY COORDINATION

                              ----------                              


                        MONDAY, JANUARY 9, 2006

                                       U.S. Senate,
          Subcommittee on Research, Nutrition, and General 
Legislation of the Committee on Agriculture, Nutrition and 
                                                  Forestry,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:15 p.m. in 
the Farm Show Complex, 2300 North Cameron Street, Harrisburg, 
Pennsylvania, Hon. Rick Santorum, chairman of the subcommittee, 
presiding.
    Present or submitting a statement: Senator Santorum.

   OPENING STATEMENT OF RICK SANTORUMA, A U.S. SENATOR FROM 
PENNSYLVANIA, CHAIRMAN, SUBCOMMITTE ON RESEARCH, NUTRITION, AND 
 GENERAL LEGISLATION, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Senator Santorum. Good afternoon. Let me thank everybody 
for attending here this afternoon, and I particularly want to 
thank the panelists who are here with us today. We have got 
three great panels to hear about the state of agriculture in 
the area of biosecurity. It is a very important time to be 
talking about that. There has certainly been a lot reported in 
the press about concerns with terrorism, as well as concerns 
with just the natural infections that come and that could 
affect our food supply, and to have a discussion as Chairman of 
the Senate Subcommittee on Research and Nutrition--this is an 
area of jurisdiction of the Agriculture Committee. It is 
something that we have had hearings on in Washington, and we 
wanted to take the opportunity, with the focal point on 
agriculture here in Pennsylvania with the Farm Show, to talk 
about its impact on Pennsylvania and the impact on agriculture 
in this State and on our economy, generally.
    I know our good Secretary, Secretary Wolff, is here, and 
certainly, as I often do sing the praises of Pennsylvania 
agriculture and talk about its importance to the economy of 
this Commonwealth, it is our No. 1 industry and we are very 
proud of that. Anybody walking into the halls today can see it 
and say it is a very important industry and one that has a lot 
of folks participating in it.
    It has been a great interest of mine. I am very proud to 
say that I was the first United States Senator on the 
Agriculture Committee from Pennsylvania since--almost 100 years 
ago was the last Pennsylvania Senator on the Agriculture 
Committee. I always like to say that you can tell our lack of 
representation has had its telltale signs in agriculture 
policy, which has been written principally by folks 
representing the Midwest and the Southern States, and it is 
important to have folks with a different point of view who 
represent States like Pennsylvania, as the Secretary will tell 
you, which is as diverse a State agriculturally as maybe any 
State in the country.
    We have great diversity, but as a result of that, there is 
not--like there are from other States--folks who are locked 
into particular crops to make sure that those particular crops 
are taken care of, as we see in various States around the 
country. Agriculture policy has been drafted to sort of take 
care of some of these Corn States, Wheat States, Cotton States, 
Rice States, as opposed to us, which is sort of an Everything 
State, if you will. So having that voice on the committee is 
important and having the cooperation that I certainly have 
gotten from the producer community here in Pennsylvania has 
been vital to that. We have accomplished a lot of things for 
Northeastern agriculture over the past several years, not the 
least of which is just recently where we were able, although it 
is not quite done yet, to keep the MILC payments in place. This 
was, I must tell you, a hard-fought battle, and I thank the 
Secretary. I know that he went to work in talking to other 
Secretaries of Agriculture in the region.
    [Laughter.]
    Senator Santorum. We were able to take a program that was 
scheduled to expire last year, and as a result of a lot of hard 
work and teamwork, we were able to put that extension in place. 
It has not yet passed. It has passed the Senate in a conference 
report, and we anticipate the House passing it relatively soon 
this year. So those payments will be available hopefully very, 
very soon, but that is a major success. It sets us up for a 
farm bill where that program is on the table for discussion, 
for the dairy program.
    I will tell you that I have worked in a lot of legislative 
areas in the past, in a whole variety of areas in agriculture 
and outside of agriculture, and I cannot think of any tougher 
area to legislate than dairy policy. It is as regional and as 
specific to a region of the State as any policy, and we are 
going to have a battle, I'm just warning everybody, to be able 
to maintain this program. The MILC program, as Senator Kohl and 
I were the authors of--Senator Kohl from Wisconsin--we were 
able to put a team together and get that done, but I will tell 
you that there are folks from the West and the South in 
particular who would like to see that program go away. As you 
know, that program is beneficial to smaller farms, although 
every dairy farm benefits from it. It is beneficial to smaller 
farms because it is a limit on--it only pays up to a certain 
limit of production and so the bigger farmers do not care as 
much about it. They care about the price support program, which 
is based on Class III milk as opposed to MILC payments, which 
are more beneficial to those of us who produce a lot of fluid 
milk. So it is going to be that kind of battle that we are 
going to be engaged in, not just in milk, but in a whole 
variety of issues coming up with the farm bill.
    One of the issues that--I know the Secretary has been here, 
Chuck Conner, who is here representing the Secretary today, was 
up at Penn State last year to do a listening session on the 
farm bill. I have been doing the same thing, traveling the 
State, trying to get feedback. It is going to be a monumental 
year. We have got a big issue coming up in 2007 next year with 
the farm bill coming forward, and I certainly hope that I am in 
a position as the No. 3 leader in the Senate, hopefully No. 2 
by next year, to be able to influence that policy and working 
to make sure that Pennsylvania's agriculture interests, whether 
the work that we have done on specialty crops, the work that we 
have done on crop insurance, a whole host of other things, 
farmland protection, all of those things we were able to get in 
previous farm bills as a member of the Agriculture Committee 
and as a member of leadership, and I just want to assure you 
that we will certainly do all we can to make sure that interest 
of Northeastern agriculture--and when I say Northeastern, I 
don't mean northeastern Pennsylvania, I mean the Northeastern 
U.S.--are represented on a committee that does not have too 
many of us. Senator Leahy and I are the only two, and certainly 
he and I do not necessarily see eye to eye on a lot of things, 
but we do on several agriculture programs, milk being one of 
them. So I just wanted to give you a little backdrop of why we 
are holding these hearings.
    One of the other issues we are going to be dealing with are 
issues of biosecurity. We have done some things that are 
important in this bill. In one of the bills that we passed at 
the end of the year, we were able to pass several billion 
dollars in money for a Presidential initiative on avian 
influenza, which is not as much, candidly, as we wanted. We 
wanted to pass $7 billion. I think we got three-point--yes, 
three-point-something. I do not remember the exact number, 
roughly half of what the President suggested. We will probably 
go back and have to work to get the rest, but it is vitally 
important and we will hear discussions today about how we deal 
with this potential pandemic for us, as well as the impact that 
it will have on agriculture and our food security. So those are 
issues that we are dealing with now, but we will be dealing 
with on a more comprehensive basis when we look at the farm 
bill.
    Let me stop and turn it over to the folks who are the 
experts in agriculture. I just try to listen to the experts and 
do my best to try to represent the folks here in Pennsylvania, 
but we have three gentleman who are here representing--two from 
the Federal Government, one who is well-known to the folks here 
in Pennsylvania. As I mentioned several times, Secretary Wolff 
is here, but I also want to introduce Chuck Conner, who is the 
Deputy Secretary of Agriculture.
    One of the things I found out, just for those who do not 
know, the shorter the title you have in a department, the more 
important you are, just so you understand that. So when you are 
talking to the Under Deputy Secretary in Charge of, you are way 
down the list. If you are the Secretary, you are the big guy. 
If you the Deputy Secretary, you are the second-biggest guy. 
Then you get into Under Secretary, but Deputy Secretary, that 
is a good title to have. That means you are very important, and 
Chuck is here. I had a chance to know and work with Chuck as he 
was the lead staff person, the staff director, on the Senate 
Agriculture Committee. It is good to have you here, Chuck. 
Thank you for being here.
    Alex Azar, who is the Deputy Secretary of Health and Human 
Services--another one of those short titles, which means that 
Alex is a person with great responsibility at the Department of 
Health and Human Services. I want to thank both of those 
gentlemen for attending, as well as you, Mr. Secretary. Again, 
thank you for your attendance.
    Chuck, why don't you start off our testimony.

     STATEMENT OF HON. CHARLES CONNER, DEPUTY SECRETARY OF 
               AGRICULTURE, USDA, WASHINGTON, DC

    Mr. Conner. Well, Chairman Santorum, thank you for holding 
this hearing today--is my mike on?
    Senator Santorum. I do not think so. Try the top. Look at 
the top. See if it is on.
    Mr. Conner. Is that on now, Mr. Chairman?
    Senator Santorum. Yes, it is on now.
    Mr. Conner. OK. Thank you. Chairman Santorum, again thank 
you very much for holding this hearing. On behalf of the 
Department of Agriculture and the Bush administration, I just 
want to thank you for your leadership on this issue. I also 
thank you, as I have observed for many, many years your 
advocacy on behalf of Northeast agriculture as it benefits the 
State of Pennsylvania, and I commend you for that.
    As you know, Mr. Chairman, biosecurity is an issue that we 
take very, very seriously at the USDA, and we appreciate your 
efforts to highlight its importance to our Nation. As you are 
also aware, I testified before the full Agriculture Committee 
in July of 2005, on food and agriculture security issues. My 
testimony today should provide an important update on that 
information, and it also should include more discussion of the 
Federal-State collaborative research efforts, and, of course, 
Mr. Chairman, I will submit my full statement for the record 
for you and summarize those remarks.
    Senator Santorum. Thank you.
    Mr. Conner. USDA considers food and agriculture biosecurity 
issues essential to its mission. The success of USDA's efforts 
is dependent upon a coordinated work of a broad range of 
Federal, State, local and private sector partners. Let me begin 
by putting the importance of agriculture into some perspective 
for you. Agricultural exports, as you know, accounted for $62.4 
billion in fiscal year 2005, and we are expected to reach 
record high dollar values of $64 billion in 2006, with 
agricultural trade, of course, being a very positive addition 
to our balance of payments and trade. Agricultural imports, as 
well, provide significant value, over $57 billion in 2005. Our 
Nation's food and agricultural system contributes approximately 
$1.24 trillion, over 12 percent, to our gross domestic product, 
and we are directly responsible for employing 17 percent of our 
Nation's workforce. We are an important sector indeed, 
certainly important to the State of Pennsylvania.
    We face many challenges in protecting this important 
infrastructure. The agricultural industry is particularly 
concerned about security because diseases and pathogens, 
whether they occur naturally or are unintentionally introduced 
or are intentionally delivered, do not respect geopolitical 
borders. While the interconnected nature of the global food 
system contributes to our own economic strength by improving 
production and marketing efficiency and providing timely 
responses to our consumers, our integrated system is also 
challenged in the event of an attack or natural disease 
outbreak. Products in this country move very, very quickly from 
State to State and from Nation to Nation. A pest, a disease or 
another agent can spread just as quickly.
    Since September 11, 2001, USDA has made great strides in 
expanding our mission to better address food and agricultural 
security. We believe that the threat to agriculture is indeed 
very real. The department has been working closely with its 
Federal, State and local government partners, as well as with 
industry stakeholders, to address these concerns using a 
sector-wide strategy based upon White House guidance. My 
written testimony highlights the advances that the department 
is making to implement Homeland Security Presidential Directive 
7, Critical Infrastructure Identification, Prioritization and 
Protection, and, of course, Homeland Security Presidential 
Directive 9, Defense of the United States Agriculture and Food.
    USDA has worked in coordination with the Department of 
Homeland Security and are active partners in the Department of 
Health and Human Services Food and Drug Administration to 
ensure that we develop a coordinated approach for protecting 
the food and agricultural sector. Central to this effort, Mr. 
Chairman, is our collaboration with the private sector for 
infrastructure protection and to create an overarching 
framework and unique plans for protecting key assets and 
resources.
    We have worked with Federal, State, local and private 
sector participants to establish avenues for sharing sensitive 
information, new policies, best practices and, of course, 
vulnerability assessments. We have formed two counsels, one for 
government, one for the private sector. The Food and 
Agriculture Government Coordinating Council is led jointly by 
the Department of Homeland Security, USDA and FDA, and includes 
Federal, State and local officials. The private sector council, 
called the Food and Agriculture Sector Coordination Council, 
represents a table-to-farm continuum. The two counsels meet 
quarterly and regularly hold individual and joint calls to 
discuss issues of mutual interest, such as sector vulnerability 
assessments and Federal research and development plans, in 
which, of course, you have a strong interest.
    Preparation, research, surveillance and response are all 
integral parts to our ability to respond to biosecurity 
threats, whether they are related to intentional acts of 
terrorism or the unintentional introduction of agents, pests or 
disease. The Federal Government, State and local governments 
and private stakeholders must be partners in those efforts if 
we are to fully achieve security. I am pleased to report to you 
today that we are indeed partners in this effort and are making 
great headway. Our integrated Federal-State system of 
collecting information and samples to detect diseases, 
utilizing state-of-the-art laboratory networks to test samples 
and jointly analyzing data, shows the benefits of our 
collaboration. Through this system, we are able to anticipate 
new and emerging threats and to quickly eliminate and contain 
already identified existing threats. I am confident that all of 
us here today are united in our belief that biosecurity for 
food and agriculture is a paramount issue that must be 
addressed with sound science and sound policy decisions. The 
department looks forward very much to continuing to work with 
this committee in a continuing effort to develop programs and 
initiatives to help enhance the security of our Nation's 
agriculture and food systems through collaborative efforts 
between Federal and State institutions.
    Mr. Chairman, that concludes my oral remarks and at the 
appropriate time I would be happy to take any questions that 
you may have for the Department of Agriculture.
    [The prepared statement of Mr. Conner can be viewed in the 
appendix on page 36.]
    Senator Santorum. Thank you, Mr. Conner.
    Mr. Azar?

   STATEMENT OF ALEX M. AZAR, II, ESQUIRE, DEPUTY SECRETARY, 
   DEPARTMENT OF HEALTH AND HUMAN SERVICES, WASHINGTON, D.C.

    Mr. Azar. Good afternoon, Chairman Santorum. I am Alex 
Azar, Deputy Secretary of the United States Department of 
Health and Human Services, of which the Food and Drug 
Administration is a part. Thank you very much for holding these 
hearings on these critical issues and thank you very much for 
your important and ongoing leadership in the agriculture and 
food safety areas, areas of fundamental importance for us at 
HHS. I have a more complete statement that I have submitted for 
the record, but would like to just summarize some of the 
points.
    I note that we are on the grounds of the Pennsylvania Farm 
Show Complex, which is the largest agricultural event in 
America, and this is, of course, a fit setting for today's 
hearings, and I appreciate this opportunity for us to be able 
to discuss our food counterterrorism activities. As a 
Johnstown, Pennsylvania native, I am also very pleased to be 
back in the State of my birth.
    Before I address the main subject of my testimony, I am 
pleased to tell you that last week Secretary Leavitt announced 
$100 million in emergency contingency fund to States, Tribes 
and Territories that will help families in need pay their 
heating and energy bills this winter. We are also making 100 
percent of the State's remaining block grant funds available, 
which amounts to $633 million, for a combined total of $733 
million in low-income heating and cooling assistance. 
Pennsylvania's share of that release was almost $7.7 million.
    On the subject of today's testimony, under the President's 
National Response Plan, HHS is responsible for leading the 
Federal public health efforts to ensure an integrated and 
focused national effort to anticipate and respond to emerging 
biological and other weapons threats. HHS is also the principal 
Federal agency responsible for coordinating all Federal level 
assets activated to support and augment the State and local 
medical and public health response to any mass casualty events. 
Within HHS, the Centers for Disease Control and Prevention, the 
Health Resources and Services Administration and the National 
Institutes of Health play key roles in our overall 
counterterrorism activities. For example, CDC operates HHS's 
Strategic National Stockpile, which contains large quantity of 
medicines and medical supplies for use in the event of a public 
health emergency. NIH is taking the lead role in the 
development of medical countermeasures to a biological attack.
    The Food and Drug Administration in HHS is the Federal 
agency that regulates everything we eat except meat, poultry 
and processed egg products, which are regulated by our partners 
at USDA. FDA's responsibility also extends to live animals and 
animal feed, and FDA is responsible for ensuring that human 
drugs, human biological products, medical devices and 
radiological products, as well as veterinary drugs, are safe 
and effective and that cosmetics are safe.
    In the past few years, HHS has done a great deal to enhance 
the safety and security of the food supply of the United 
States. Food safety and food defense continue to be top 
priorities for the administration. A terrorist attack on the 
food supply could have both severe public health and economic 
consequences while damaging the public's confidence in the food 
we eat. The changes in food safety and defense that we have 
been implementing in the last few years are the most 
fundamental enhancements in our food safety and defense 
activities in many years. FDA has worked with food safety 
agencies, as well as with law enforcement and intelligence 
gathering agencies and with industry, to significantly 
strengthen the Nation's food safety system across the entire 
distribution chain, from farm to table, to better protect our 
food supply against deliberate and accidental threats. This 
cooperation has resulted in greater awareness of 
vulnerabilities, the creation of more effective prevention 
programs, new surveillance systems and faster outbreak response 
capabilities.
    One byproduct of these efforts, in collaboration between 
the Federal, State and local governments, as well as the 
private sector, is guidance that we have been able to publish 
for industry, a copy of which I have today, which is the 
guidance that the FDA issued for dairy farmers and dairy 
producers to ensure the safety of America's dairy products. FDA 
is working closely with the Department of Homeland Security and 
other Federal agencies to implement the President's Homeland 
Security Presidential Directives, as Secretary Conner said. The 
President has issued HSPDs 7, 8 and 9, which identify critical 
infrastructures, improve response planning and establish a 
national policy to defend the agriculture and food systems 
against terrorist attacks, major disasters and other 
emergencies. Over the past 3 years, FDA and HHS have also been 
implementing the Public Health Security and Bioterrorism 
Preparedness Act of 2002. The Bioterrorism Act provided the 
Secretary of HHS with significant new authorities to protect 
the Nation's food supply against the threat of intentional 
contamination and other food-related emergencies. These 
authorities improve our ability to act quickly in responding to 
a threatened attack, as well as other food-related emergencies.
    I would like to mention just a few of those provisions. 
Section 305 of the Bioterrorism Act requires registration of 
foreign and domestic food facilities that manufacture, process, 
pack or hold food for consumption by humans or animals in the 
U.S. With this provision, FDA has for the first time ever a 
roster of foreign and domestic food facilities that provide 
food for American consumers. In the event of an emergency, the 
registration information will help FDA quickly identify, locate 
and notify the facilities that may be affected.
    Section 307 requires the submission to FDA of prior notice 
of feed, including animal feed, that is offered for import into 
the United States. This advance information allows the FDA, 
working closely with the Customs and Border Patrol, to more 
effectively target inspections at the border to ensure the 
safety of imported foods before they move into the United 
States.
    Section 306 authorizes FDA to have access to certain 
records when the agency has a reasonable belief that an article 
of food is adulterated and presents a threat of serious adverse 
health consequences or death to humans or animals. This 
enhances FDA's ability to track and contain foods that pose a 
threat to American consumers from accidental or deliberate 
contamination of food.
    I would like to briefly mention a few other program 
activities. FDA has issued guidance on the security measures 
the food industry may take to minimize the risk that food will 
be subject to tampering or other malicious criminal or 
terrorist actions. To increase laboratory research capacity, 
FDA has worked closely in collaboration with FSIS at USDA to 
establish the Food Emergency Response Network, to include a 
substantial number of laboratories capable of analyzing foods 
for agents of concern.
    We have also conducted extensive scientific vulnerability 
assessments of different categories of food, determining the 
most serious risks of intentional contamination with different 
biological or chemical agents during various stages of food 
production and distribution. We also have an ambitious research 
agenda to address potential terrorist threats. I would also be 
remiss, Mr. Chairman, if I did not mention the efforts underway 
in the administration and at HHS with regard to avian 
influenza. Secretary Mike Leavitt has made influenza pandemic 
planning and preparedness a top priority, and we thank you very 
much for your leadership in securing through Congress the 
passage of the first year's funding, the full funding for the 
first year, of the President's proposal for pandemic avian 
influenza preparedness, and I look forward to working with you 
together to secure the funding for the following 2 years so 
that we can complete the ambitious agenda we have laid out to 
get this country better prepared for a possible pandemic 
influenza outbreak.
    Through the Influenza Preparedness Task Force that 
Secretary Leavitt has chartered, the FDA and other agencies 
within HHS are working together to prepare the U.S. for this 
potential threat to the health of our Nation. We are also 
working closely with other Federal, State, local and private 
sector entities to ensure close collaboration. Because pandemic 
influenza viruses will emerge in part or wholly from among 
animal influenza viruses, such as birds, it is critical for 
human and animal health authorities to closely coordinate their 
activities, such as surveillance, to share relevant information 
as quickly and transparently as possible. In that connection, 
HHS collaborates with USDA and the Department of Interior in 
critical partnerships for domestic preparedness for a possible 
avian influenza outbreak here in the United States. Early 
detection will be the key to allowing the United States to 
having the most up-to-date and reliable information that will 
help us save animal and human lives.
    In conclusion, HHS is making significant progress in its 
ability to ensure the safety of the food supply due to the 
enhancements being made by FDA and other agencies and due to 
the close coordination between Federal and State food safety, 
public health, law enforcement and intelligence-gathering 
agencies. The U.S. food safety and defense system is stronger 
than ever before. Although we are better prepared than ever 
before, we are continuously working to improve our ability to 
prevent, detect and respond to terrorist threats.
    Thank you very much for this opportunity to discuss our 
counterterrorism activities with you to protect the American 
food supply, and I would be pleased to respond to any of your 
questions at the appropriate time.
    [The prepared statement of Mr. Azar can be viewd in the 
appendix on page 65.]
    Senator Santorum. Thank you, Mr. Azar.
    Mr. Secretary, thank you for being here.

 STATEMENT OF DENNIS WOLFF, SECRETARY, PENNSYLVANIA DEPARTMENT 
            OF AGRICULTURE, HARRISBURG, PENNSYLVANIA

    Mr. Wolff. Thank you, Senator. On behalf of the 
Pennsylvania Department of Agriculture, as well as the entire 
agriculture community in Pennsylvania, we want to thank you for 
choosing the largest indoor livestock exposition in the United 
States, the 90th Annual Pennsylvania Farm Show, as your venue 
for these hearings today. As mentioned earlier, agriculture is 
such a huge economic driver here in the Commonwealth of 
Pennsylvania, representing around $4.5 billion of farm gate 
revenue, and when you do the multiplier on that it has an 
impact of over $40 billion in Pennsylvania. It also represents 
one out of every seven jobs here in the Commonwealth.
    Agriculture in Pennsylvania is very diverse. We have 
everything from Christmas tree farms to mushroom growers, to 
the largest growing hardwood industry in Pennsylvania, as well 
as we have a huge livestock component, and therein lies some of 
our concerns as it relates to bioterrorism and the concerns as 
to why we need a good system in place here in Pennsylvania.
    Under Governor Rendell's direction, the Pennsylvania 
Department of Agriculture in 2003 was included as part of the 
Homeland Security and Domestic Preparedness Assessment and 
Strategic Planning Program. We were only one of six States in 
the United States that included agriculture in this plan and 
this program. This truly reflects the Commonwealth's commitment 
to agriculture biosecurity prevention, as well as response and 
recovery programs that we feel we need in place here in 
Pennsylvania.
    Pennsylvania has invested in and implemented several new 
programs to improve our biosecurity systems. The funds that 
were used from PEMA and USDA were used to update our 
information system between the two laboratories here in 
Pennsylvania. Also, it was used to update our premise data base 
so that all the farms in Pennsylvania will be listed on a GIS 
map so that we can effectively and expediently carry out any 
actions we need to do in case of an outbreak within our 
livestock industry here in Pennsylvania.
    We also used funds from Health and CDC to rebuild our food 
safety inspection system. We call it the Garrison System. It is 
real-time information. It is a good, consolidated system 
throughout Pennsylvania that really helps us do a much better 
job in working with all the restaurants in Pennsylvania that we 
inspect, as well as the food processing centers in 
Pennsylvania, which makes sure that everything is not only, in 
fact, being properly handled, but if there is an outbreak, it 
is an immediate flag so that we know that we have got a 
problem, something outside of the ordinary challenges that our 
food safety inspectors may need to deal with.
    We have also developed the PASART program. This came from 
funds from Homeland Security and PEMA once again. It is to 
train local volunteers to develop a local and State plan as it 
relates to animal emergencies, and, in fact, Joel Hersh, who is 
our Executive Director, is working with USDA to help develop a 
national response plan with a similar type of mission.
    We recently conducted a tabletop exercise for an avian 
influenza outbreak, and that was with our partners at Penn 
State, the University of Pennsylvania, the Department of 
Health, PEMA, the FBI, USDA and PennAg industries, so we had 
all our stakeholders at the table to look up both our strengths 
and our weaknesses so that we can do a better job in terms of 
responding to an outbreak if we had one here.
    Governor Rendell recently approved construction for a BSL-3 
lab here at the Harrisburg laboratory, which will give us the 
capabilities of handling samples that are more sensitive and 
are also--certainly in helping protect our staff that works 
with those samples. So what else do we need? We still have some 
needs here in Pennsylvania to make us even a better State in 
terms of being prepared. We feel that our plant industry is 
something that really can be upgraded in terms of dealing with 
a timely response to issues such as what rust, corn leaf blight 
or plum pox.
    We think that the BSL-3 laboratory capability should be 
included in our other two diagnostic labs. Here in 
Pennsylvania, we have three laboratories. We have one here in 
Harrisburg, one at the University of Pennsylvania and one at 
Penn State University. Only one of those three labs is going to 
have the BSL-3 capacity. We think we need funding for more 
personal protective gear as it deals with issues such as an 
outbreak of H5N1 in our poultry industry.
    We also think that we should have more funds in terms of 
research and development as it relates, in particular, to 
agriculture and domestic preparedness. I hope this gives you 
some idea of some of the programs that we have here in 
Pennsylvania, as well as some of our additional needs. I would 
like to thank you for being here today, and we hope you enjoyed 
the 90th Farm Show. I will also be submitting written testimony 
and be glad to answer questions when the time is appropriate.
    [The prepared statement of Secretary Wolff can be viewed 
inthe appendix on page 97.]
    Senator Santorum. Thank you, Mr. Secretary. I appreciate 
that. I am curious. You mentioned your tabletop exercise. First 
off, can you tell me, with respect to avian influenza and the 
outbreak, can you tell me some of the lessons learned from that 
exercise? And then I will see if you guys can tell me whether 
you are doing similar kinds of exercises and what you are 
learning.
    Mr. Wolff. I think the tabletop exercise really helped us 
understand that we need better personal protective gear. For 
example----
    Senator Santorum. For whom?
    Mr. Wolff. That is exactly the point. We had PEMA at the 
table and we had the Department of Agriculture at the table. So 
if you have an outbreak of H5N1 in a large poultry operation, 
who goes in and depopulates the birds? Do you ask PEMA to go in 
and depopulate the birds or do you ask the Department of 
Agriculture to go in, and who has the equipment and the 
expertise to do it? Well, as it turns out, PEMA has the 
equipment and the Department of Agriculture has the expertise. 
Therefore, we did not have people trained to be able to go in 
and depopulate a large poultry population if they had H5N1--
lesson well-learned, something you think that would really jump 
right out at you, but until you do the tabletop exercise and 
start to delegate those responsibilities, it becomes obvious 
where your shortcomings are--better communications in working 
together, notifying the agencies, who has authority, what are 
the legal authorities? If you are going to depopulate a farm, 
who is going to sign off on that and say, ``You have the 
authority to remove $1 million worth of birds from this farming 
operation''? So they are the kind of issues that become 
obvious, that we need to have a better plan and more details as 
we work through this process so that we are, in fact, prepared 
if we were to have an outbreak of H5N1.
    Senator Santorum. OK, Chuck, who has the legal authority 
and why does PEMA have the equipment and USDA have the 
knowledge?
    Mr. Conner. Well, Mr. Chairman, I am not General Counsel 
for the Department of Agriculture, I am the Deputy Secretary, 
but I will tell you that when it comes to issues of eradication 
and control, the Department of Agriculture has a lot of 
experience in the State of Pennsylvania and a lot of other 
States, and we believe we have full legal authority to take the 
actions that are necessary to control and eradicate the 
disease. That is not a statement going forward. That is a 
statement I think we have demonstrated a number of times in the 
past as we have successfully eradicated low-pathogen avian flu 
in a number of circumstances, including the State of 
Pennsylvania, some high-pathogen H5N2 circumstances, as well, 
that could have been more challenging, were successfully 
controlled and eradicated, as well. So we stand, I think, 
pretty well on our legal authority to do this.
    Having said that, I think the Secretary of Agriculture for 
your State makes a very good point in terms of the need for 
full cooperation. It is absolutely essential when you have a 
situation develop like this, because the U.S. Department of 
Agriculture are not the only people on the ground. Obviously, 
we collaborate greatly with local people, the local 
laboratories that are there to do the testing. These are the 
types of areas I think where we feel like we have made 
tremendous progress in the last 3 years, is that coordination 
effort which is so essential for rapid response to these 
circumstances.
    If you have got a particular product in question that is 
being tested at a State laboratory, there is no time for the 
results to sit around and to wait, and perhaps that might have 
been possible before, but with the relationships we have 
developed with private sector, but particularly the State 
laboratories, implementing them into our laboratory network, 
those types of things I just do not believe were possible going 
forward. We will know quickly when there is a problem. We will 
be prepared to move quickly, and, of course, that is absolutely 
key to a successful eradication effort, is getting it quickly.
    As I noted in my oral testimony, the agriculture and food 
system we live in has food and product moving very, very 
rapidly, and that is to our benefit, but at the same time that 
is our challenge in terms of eradication because we must get 
hold of this product-to-product question before it gets fully 
into commerce.
    Senator Santorum. The Secretary has talked about a 
simulation that he did. Are you folks doing simulations? Is 
maybe HHS, in particular, doing simulations with respect to 
avian flu, or are you doing it on the bird side? I know you 
might be doing it on the human side. Now that this outbreak is 
potentially present with us, what are you doing with it?
    Mr. Conner. At the Department of Agriculture--let me just 
say the dates. We can get you the precise dates and the 
information, but we had a major simulation exercise. I believe 
the title of it was Crimson Sky, I believe, about 2 years ago, 
and in that particular circumstance foot and mouth disease was 
the problem. The exercise was highly successful. You mentioned 
specifically avian flu. As you know, Mr. Chairman, the White 
House held an important simulation exercise to review our 
multi-agency and White House response in an avian flu outbreak. 
The Department of Agriculture played a very, very active role 
in that, as did the Department of Health and Human Services, 
and we are continuing a lessons-learned process in that 
exercise, as well. The Department of Agriculture, as I know 
other agencies do, do have additional exercise-type activities 
planned going forward so that we absolutely----
    Senator Santorum. From the lessons learned, can you talk 
about any particular holes and anything that we in Congress may 
be able to help you with?
    Mr. Conner. I think from our standpoint communication and 
coordination are always the first step in that process. As 
Secretary Azar pointed out, just between our two agencies there 
are a number of areas of shared jurisdiction. Some of the 
jurisdictional lines, you sit back and you wonder how did that 
jurisdictional line end up where he has feed, we have meat, we 
have poultry, he has food products--those kinds of situations. 
Regardless of where those lines are drawn, we need to work 
together, and whether it is coordination activities, sharing 
information, although I think the lesson learned--what you 
learn in these exercises--is that need. Going beyond that, 
though, again, as I pointed out earlier, I think the progress 
that we need to continue to focus on is not just among our 
agencies, but reaching down to the State and, in this case, 
even the private sector for those vulnerability assessments so 
that we are not just sitting back, waiting on the event, but we 
are identifying where they are likely to occur and how they are 
likely to occur and take preventative mitigation measures 
hopefully before that happens.
    Mr. Azar. That is what I think one of the critical lessons 
learned coming out of the tabletop that the White House 
organized for the Cabinet members before the holidays on avian 
flu--pointed out the importance that, when it comes to 
preparing for a pandemic avian influenza outbreak in the United 
States, this cannot be the Federal Government alone. This is 
too big. If we look at just comparing an avian influenza 
pandemic in the United States to something as devastating as 
Hurricane Katrina, and compare the differences between them, 
Katrina, as horrible as it was, was confined in region and 
duration. A pandemic influenza outbreak would be nationwide by 
definition, with outbreaks occurring in multiple cities at the 
same time, and it would not last a couple of days. It would 
last for months, possibly 18 months. We do not quite know.
    This is something that would bring every part of the 
American economy to bear, the Federal Government, State, local, 
private sector, all coming together to work on it. And that is 
why, coming out of this tabletop, the President directed 
Secretary Leavitt to convene pandemic influenza preparedness 
summits in every single State, and so right now HHS is working 
with USDA and the Department of Homeland Security and the 
Department of Interior. We are convening with Governors in 
every State pandemic summits where we go through what should 
State plans include, what types of industry ought to be at the 
table, how can everybody prepare for an avian outbreak, and 
importantly our request that every single State exercise those 
plans. A plan on a shelf is not useful. It has to be exercised. 
It is only when you actually run through it that you can 
identify the holes in it and the flow of information, learning, 
for instance, the importance of public communications and the 
accuracy and timeliness of communications to the public during 
any type of public health emergency.
    Senator Santorum. Since we are on the topic of avian 
influenza, I know there are news reports today about deaths in 
Turkey. Do you have any update on that?
    Mr. Conner. Senator, I do not, and I do not know whether 
Alex does, as well. I read the same news clips as you probably 
did this morning with regard to the family, the one family, in 
particular, that had direct contact with the handling of the 
birds, and I have not gotten an additional update since early 
this morning.
    Mr. Azar. The latest information that I have--and it was 
going to be updated actually this afternoon with some more 
recent information from the World Health Organization--is that 
so far the cases that have been identified, as Secretary Conner 
mentioned, appear to have been ones where transmission would 
have been as a result of close, repeated, proximate handling of 
poultry, but we still need to continue to look into this. So at 
the moment it does not appear that the cases that have been 
identified so far are the result of efficient human-to-human 
spread of the avian influenza virus, but we do still need to 
work with the Turkish authorities and the World Health 
Organization to get all of the facts on the ground there before 
we state anything conclusively.
    Senator Santorum. Mr. Secretary?
    Mr. Wolff. Well, I think that is kind of an interesting 
point, that as H5N1 starts to be spread through migratory 
birds, they feel that is how our greatest vulnerability of it 
infecting the poultry population in the United States could 
occur. It would basically go up through Asia and then come 
through Alaska, and then come down through Canada and infect 
the poultry flocks in the United States. So that is really why 
we feel that it is just so critical to have a good surveillance 
program in place, as well as a good response plan that, 
unfortunately here in Pennsylvania, has not been on the shelf, 
because we have exercised it a number of times. Fortunately, it 
has not been H5N1. It has been a low-pathogen--actually a non-
reportable type of avian flu in every case. So we are very 
pleased that we have not had to deal with an H5N1, but the real 
threat for a pandemic in the United States obviously is that if 
it comes into the migratory birds, into the poultry population, 
then it can actually mutate to the point where it can be human-
to-human population--is one of the ways that a pandemic could 
happen in the United States. But more likely the way it would 
happen would be that mutation would take place in another 
country and someone would travel to the United States, and then 
it would start to spread that way. But having said that, it 
really does, I think, come to the point as to how important it 
is to have funds in place to make sure that there are good 
surveillance programs out there for the domestic poultry 
population and have good response plans in order to be able to 
contain that if we were to have the H5N1 in our poultry 
industry here in the United States.
    Senator Santorum. Are you satisfied that there are funds 
available for such surveillance?
    Mr. Conner. We are, Chairman Santorum, and are so because 
of your good work and the good work of the Congress in recently 
passing the supplemental request that Secretary Azar mentioned. 
The President requested those dollars from the Department of 
Agriculture standpoint. We actually requested and received the 
full $91 million that we sought. A good portion of that money 
is for surveillance, including surveillance of the wild bird 
populations coming down through Canada. And so we are confident 
that we have the mechanisms in place, particularly with this 
additional money, to achieve what I think are high-priority 
surveillance issues at this point.
    Senator Santorum. If a migratory bird were to be tested and 
found, would that be something that the public would be made 
aware of or is that something that----
    Mr. Conner. Yes, we would, as soon as confirmation of that 
test would happen. Certainly that would be public information. 
I will tell you Secretary Johanns believes firmly in an open 
system of communication with the public. We have been through a 
number of issues, as you know, with BSE, the so-called mad cow 
disease, in terms of release of public information of that. I 
think we have demonstrated that we are not going to put out bad 
information prematurely, but as soon as information is 
confirmed we are going to make that information known to the 
public so that they can take appropriate action, whatever that 
may be.
    Mr. Azar. And Secretary Leavitt and the President--in terms 
of human-avian influenza preparedness, transparency and 
openness are the centerpiece of how America is trying to deal 
with this problem, and encouraging other Nations around the 
world to similarly be transparent and open. So obviously we 
have to set the example.
    Senator Santorum. Very good. Thank you, gentlemen. I 
appreciate your testimony.
    If the second panel could come forward? Thank you, 
gentlemen. I appreciate you being here. Let me go in order of 
testimony. First we have Dr. Robert Steele, who is the Dean of 
the College of Agriculture Sciences at my alma mater, Penn 
State University, and an appropriate blue and white tie that 
you have on, Dean Steele. Thank you for being here and for 
certainly the great collaborative effort that you have shown to 
me in our office and the work that we have done on agriculture 
policy and agriculture research, you and the school have been 
terrific in providing lots of resources to us and my staff, and 
I just want to thank you publicly for the cooperation.
    Dr. Gary Smith, who is a Professor of Population Biology 
and Epidemiology at the University of Pennsylvania School of 
Veterinary Medicine. Thank you very much for being here.
    Finally, Dr. Bernard Goldstein, who is the Professor of the 
Graduate School of Public Health at the University of 
Pittsburgh. So we have Pittsburgh, State College and almost 
Philadelphia represented here today. So thank you, thank all 
three of you, for being here.
    Dr. Steele?

   STATEMENT OF ROBERT STEELE, DEAN, COLLEGE OF AGRICULTURAL 
      SCIENCES AT PENN STATE UNIVERSITY, UNIVERSITY PARK, 
                          PENNSYLVANIA

    Mr. Steele. Thank you, Chairman Santorum, and I appreciate 
the opportunity to represent the Commonwealth's land-grant 
university at the hearings here today. As you know so well, we 
have been celebrating our 150 year sesquicentennial, along with 
Michigan State University, as the Nation's two oldest colleges 
of agriculture, Penn State having awarded the first 
undergraduate and graduate degrees in agriculture in all of the 
United States, and we are quite proud of that 150-year history. 
And throughout those 150 years we have been dealing with 
biosecurity. We defined it different ways, depending on the 
decade.
    We also are proud of the fact that of the nearly 150 4-year 
institutions of higher education that we have in the 
Commonwealth, that Penn State, as the land-grant university, is 
the only university that offers programming across the entire 
food and fiber spectrum, reaching into each of the 67 counties 
of the Commonwealth.
    In my written text, I offered five examples or sample areas 
where we are working in collaboration with USDA, Pennsylvania 
Department of Agriculture, Pitt, as well as Penn, to illustrate 
a few key points, and those areas were avian influenza--and we 
have already been talking about that--the development of 
molecular biosensors, where we are taking the fascinating 
technology of biotechnology and merging it with nanotechnology, 
the area of plum pox, which Secretary Wolff mentioned, the 
issue of soybean rust--very, very important and key across the 
entire country--and then finally what we called the EDEN 
program, and I notice that it is in Secretary Conner's written 
remarks, the Extension Disaster Education Network that plugs 
into each of the 67 counties of Pennsylvania, along with PEMA 
and FEMA, but also into the nearly over three thousand counties 
across the United States.
    Across those five example areas, I think a few common 
things emerge. First of all, we do not have all the answers for 
the issues of today, let alone what tomorrow's issues are. We 
need to continue to find ways to close these knowledge gaps 
that are there, and we need to close these knowledge gaps, 
whether it is the threat of an intentional introduction of a 
pest or pathogen or the unintentional or natural introduction 
of a pest or pathogen, because as a scientist I can tell you 
the science is the same. The science is the same whether it is 
intentional or unintentional with any pest or pathogen.
    Second, and I believe probably the most important issue 
here when we talk about security, agriculture, biological 
security, is that this is a generational issue. This is going 
to be with us for decades, just as it has been. We will define 
it in different ways in the years ahead, but we have a very 
real workforce issue. Think back to the anthrax issue of a few 
years ago and how difficult it was to find people who knew much 
about anthrax. I know people at the FBI and the CIA came to 
Penn State and we went to retired faculty to bring them out to 
deal with this issue.

    I saw figures just yesterday where 8 years ahead we are 
projecting the need for 24 million college graduates in the job 
market, and the demographics are predicting we are going to 
have 19 million. So we have this general workforce issue to 
start with in the area of agriculture security, biosecurity. 
These best and brightest young people, what can we do to 
convince them that they can have a rewarding career in this 
area, an important career, because yes, it is in the public 
good. As we all know, unfortunately, it is also an issue of 
national defense, as well.
    When I look within Pennsylvania, I see the single-most 
important issue facility-wise, and Secretary Wolff already 
pointed this out, in biocontainment and the need for additional 
biosafety Level-3 facilities, not only at Penn State, but at 
Pitt and Penn and frankly wherever we need them. The one that 
will be coming into Harrisburg is just simply not going to be 
adequate, and we are woefully behind other States in the United 
States in this, and we need to pay attention to that.
    At the national level, in my role----
    Senator Santorum. I hate to interrupt your testimony, but 
could you explain while you are on the subject what the 
difference is between a Level 3 and a Level 2, and why it is 
important and why we are behind?
    Mr. Steele. Well, the different levels are a function of 
the nature of the pathogen, all the way up to a Biosafety 
Level-4--Ebola virus, for example, into a Biosafety Level 4. So 
it is an issue of the degree of containment and the measures 
and steps that need to be taken to protect you from the 
pathogen, the pathogen from you, and as you might guess, the 
higher the number, the price tag goes up. That is the short 
answer to your question.
    Nationally, I think the issue we have--and we have been 
working with Secretary Conner on this, is we all know we are 
resource-constrained in everything that we do, and we need to 
find more effective and efficient ways of using the resources 
that we already have, and in my role--in a leadership role in 
the national land-grant community, there has been a small group 
of us working with USDA and others to fundamentally restructure 
our research, education and extension arm of the USDA to make 
better and more efficient and more effective use of the 
resources that we already have. I do think that there are some 
efficiencies that can be gained.
    So in the end--and I know your subcommittee actually will 
become very important with us because this is Title VIII of the 
farm bill, which your Research Subcommittee deals with front 
and center. So finally I close with trying to ask the question, 
as this session is closing, are we prepared, and my answer is 
not nearly well enough because of the knowledge gaps, the 
workforce needs as we project in the future. And we need to get 
to work in doing this because if not us, who is going to do it? 
And so again, Senator, thank you for giving me the opportunity 
to present my testimony here with you today.
    [The prepared statement of Mr. Steele can be viewed in the 
appendix on page 102.]
    Senator Santorum. Thank you, Dean Steele.
    Dr. Smith?

 STATEMENT OF DR. GARY SMITH, PROFESSOR OF POPULATION BIOLOGY 
    AND EPIDEMIOLOGY, UNIVERSITY OF PENNSYLVANIA SCHOOL OF 
       VETERINARY MEDICINE, KENNETT SQUARE, PENNSYLVANIA

    Dr. Smith. Good afternoon, Mr. Chairman. My name is Gary 
Smith, and as you know I work at the University of 
Pennsylvania. Penn has a number of institutions and the 
initiatives that deal with all hazard response, but I am just 
going to concentrate on the particular responsibilities of the 
School of Veterinary Medicine, which is where I work. The 
school's primary contribution to the national effort to 
maintain agricultural biosecurity involves first training the 
veterinarians who will be among the primary responders to any 
threat to agricultural biosecurity, and then the research and 
service components of our work that is exclusively directed 
toward biosecurity issues. And that service component includes 
the National Salmonella Reference Center, the William Boucher 
Field Service, the Poultry Diagnostic Laboratory, and our 
contributions have already been mentioned to the Pennsylvania 
Diagnostic Laboratory System, and that is indeed the bread and 
butter of what we do, and it represents an existing 
infrastructure upon which our ability to coordinate research 
and to develop an integrated strategy to protect the 
agricultural industry from both accidental and deliberate 
introduction of pathogens in part depends, and that 
infrastructure, of course, is being elaborated all the time.
    One example is the Emerging Primary Animal Healthcare 
Specialist Training Program, a long title for something quite 
simple. It's designed to train those who actually work on, for 
example, dairy farms, to recognize diseases and conditions that 
may affect productivity and perhaps some serious breakdown of 
biosecurity. But is agriculture prepared to defend itself? 
Well, up to a point. I am going to use just one example to 
illustrate what I mean by that. It is certainly the case, for 
example, that research workers like myself and my colleagues at 
Penn State have been extremely active over the last three or 4 
years in exploring things like the mathematical models of 
foreign animal diseases that have proved so useful in 
controlling, say, mad cow disease and foot and mouth disease in 
Europe, and which could equally well be applied here in the 
United States.
    It is absolutely no exaggeration to say that Pennsylvania, 
New Jersey and Maryland all taken together have more research 
groups with more experience and more expertise in areas like 
infectious disease modeling and syndromic surveillance 
methodologies than anywhere else in the United States, but the 
data that drive these systems are just not there in any kind of 
useful quantity.
    Multi-infectious disease models absolutely depend upon 
something quite simple, knowing where the farms are and how the 
animals move between them, and that means we need good maps and 
we need an effective national animal identification system, and 
at the moment, with some caveats, we have neither. There are, 
indeed, current attempts to remedy these deficits at both the 
State and Federal level, I know, as I am sure you know, too, 
but I honestly am pessimistic that any of them will return 
useful information in a timely manner. And to be quite honest, 
our current research strategies--that is to say my own and my 
colleagues at places like Penn State--is to assume that we will 
never have these data and to decide to focus instead on 
workarounds, to attempt to use what is available in the public 
domain and to see if we can answer worthwhile questions about 
prevention and control using information that is much more 
granular, to use the jargon, than we would like.
    Just in case you think this is some arcane issue of 
interest only to those who model infectious disease dynamics, 
it is worth pointing out that the perfectly ordinary methods of 
dealing with infectious disease outbreaks also depend on being 
able to trace animals back to their original farm. At the 
moment, this is done by questionnaire and by following the 
commercial paper trail. It is tedious, it is often inaccurate, 
and worst of all it is slow. It is very, very slow, and as 
several of the witnesses have already stated, speed is 
everything in these matters. The delay of just 24 hours can 
mean an epidemic of almost twice the magnitude.
    One of the greatest impediments to the acquisition of good 
maps and of a national animal identification system are the 
quite proper and very realistic objections of the industry 
itself. There are some very complicated issues of 
confidentiality here, not to mention the required reassurances 
with respect to possible litigation that can only be resolved, 
I think, by legislation.
    Thank you. I will take questions at the appropriate time.
    [The prepared statement of Dr. Smith can be viewed in the 
appendix on page 108.]
    Senator Santorum. Thank you very much, Dr. Smith.
    Dr. Goldstein?

  STATEMENT OF DR. BERNARD D. GOLDSTEIN, PROFESSOR, GRADUATE 
SCHOOL OF PUBLIC HEALTH, UNIVERSITY OF PITTSBURGH, PITTSBURGH, 
                          PENNSYLVANIA

    Dr. Goldstein. Thank you, Chairman Santorum. I appreciate 
the opportunity to be here. I am a physician, until recently 
Dean of the Graduate School of Public Health at the University 
of Pittsburgh, and I will approach this testimony from a public 
health background. I ought to tell you that I'm also the 
former--under President Reagan--the former Assistant 
Administrator for Research and Development at EPA, which is a 
very long title.
    [Laughter.]
    Senator Santorum. We still think you are important here 
today, Dr. Goldstein.
    Dr. Goldstein. Thank you. We in public health have been 
particularly concerned with food safety and with the public 
health infrastructure. Our Graduate School of Public Health is 
very research oriented. We are first in the Nation among State-
related schools of public health in competitive NIH funding, 
only behind Johns Hopkins and Harvard among the 37 schools of 
public health.
    Our research grants from NIH funding lead us to approach 
the terrorism issue.By addding onto existing biomedical 
capabilities. We have a lot of opportunities to do that. We 
have moved forward in a number of different ways in an attempt 
to do so. But we would note to you that the silos that separate 
out research funding streams in this country tend to make it 
difficult to move across the various different potential 
funding pathway. In my written testimony, which I am 
paraphrasing, I have given you an example of an opportunity 
based upon NIH funding to much more rapidly detect and much 
more cheaply detect new pathogens, that one of the Nation's 
experts has been unsuccessful in being able to generalize from 
NIH funding toward potential agricultural bioterrorism threats.
    Our schools major interest, however, is in the rural public 
health infrastructure and trying to work to safeguard rural 
public health. We have worked along with our colleagues at Penn 
State and the University of Pittsburgh at Bradford in the rural 
areas of our State. We have developed a nationally known Center 
For Rural Public Health Practice. The response to bioterrorism 
has been central to this program.
    We have had a major national meeting on the rural public 
health agenda, which we hosted through this center. It was 
interesting among these national experts terrorism toward the 
agricultural infrastructure was a major issue. Of the many 
different bullets that were in the document, the nural public 
health community noted, the importance that the locus of 
agricultural production could be key to bioterrorist targeting 
of the United States.
    The programs we have developed at Pitt-Bradford have been 
reasonably successful. Our overall center in Pittsburg, funded 
by the Centers for Disease Control of the U.S. Public Health 
Service--our Center for Public Health Preparedness, was awarded 
over $5 million for the next 5 years to train front-line public 
health workers and first responders. We offer onsite and long-
distance training, preparedness nursing, bioterrorism, 
preparedness law, forensic epidemiology and environmental 
health to a combined total of more than 700 public health 
professionals and clinicians. However, in collaboration with 
the Center for Rural Public Health Practice at Pitt Bradford, 
we could and should do more that is specifically aimed at rural 
public health practice and agricultural issues amidst this 
broad range of efforts related to preparedness, in general.
    Our task is quite challenging for two reasons; one is 
obviously the lack of funding, but another has to do with the 
lack of public health infrastructure in our Commonwealth's 
rural areas. The Federal HRSA figures show that Pennsylvania 
ranks 50th among all States in our public health 
infrastructure. In the size of our public health workforce per 
capita. are number 50. It is particularly notable in our rural 
areas. As just one example, many of our northern tier counties 
have an infrastructure in place of perhaps a total of two 
public health nurses, while demographically similar southern 
tier counties from New York State have a public health 
workforce that counts in the dozens.
    We need to do more to beef up the public health 
infrastructure in our State in rural areas to be able to 
respond to these threats, but our academic program has not 
waited for the Commonwealth to improve this infrastructure. We 
have used our CDC funding to reach out to the entire responder 
community--that is, firefighters, police, EMT personnel and 
others active throughout the rural parts of the State, and we 
have done this in collaboration with our colleagues at Penn 
State. Some of these programs are beginning to be copied 
nationally.
    Finally, I should point out that there is a need for 
integrated assessment and planning. You have asked some very 
good questions about that earlier. There is a Center for 
Biosecurity at the University of Pittsburgh Medical Center. It 
is certainly the first of the major centers working on the 
issue of bioterrorism from infectious disease, but it is aimed 
at understanding the broad issues related to the threat of 
bioterrorism to the Nation's health, economic and social and 
political security. This began at Johns Hopkins. It has moved 
to the University of Pittsburgh Medical Center. Dr. D.A. 
Henderson is the physician who has been most responsible for 
the eradication of smallpox. He is the former Dean of the Johns 
Hopkins School of Public Health, and who was President Bush's 
key person in the response to the anthrax episode. We believe 
that there is really a need for better integrated assessment 
that should come to a large extent from reasonably independent 
sources. We think the universities of our Nation can provide 
not only that independent resource to look across these various 
different areas, but to help with generalizing to the research 
that is needed to anticipate the future threats that will come, 
as Dr. Steele says, for the next generation.
    Thank you, and I welcome the opportunity to answer 
questions.
    [The prepared statement of Dr. Goldstein can be can be 
viewed in the appendix on page 114.]
    Senator Santorum. Thank you, Dr. Goldstein. Well, let me 
just pick up on where you left off, which is coordination. I 
mean, we have heard Secretary Wolff and the other secretaries 
talk about the one area that seems to come to the top, is 
communications and coordination. How much coordination and 
communications do the USDA and Pennsylvania Department of 
Agriculture have with your organizations, and how involved are 
you in that?
    Mr. Steele. At Penn State, in the Pennsylvania Department 
of Agriculture, I think some of my colleagues sitting behind me 
would say on a daily basis. Our leadership teams meet on a 
regular basis three or four times a year on building a common 
agenda. Our scientists again are interacting daily. We are 
quite appreciative of the highway money that has gone in to 
make the road between State College and Harrisburg a little 
quicker to get through.
    Senator Santorum. Almost done.
    Mr. Steele. Almost.
    Senator Santorum. Almost done.
    Mr. Steele. But it is just an extremely, extremely 
effective cooperation which then extends largely through the 
system to Penn, and then on other issues of commonality to 
institutions like Pitt.
    In a more separate, but parallel vein, through the land 
grant system where we are organized regionally, the Northeast 
region, the North-Central region, the West and the South, we 
interact with USDA primarily through what we call CSREES, the 
Cooperative State Research Education Extension System, and that 
is a very, very formal alignment, and it is, in fact, the 
essence of the land grant system.
    Dr. Goldstein. Well, it is a great advantage to the 
University of Pittsburgh to be able to work closely and 
cooperatively with Penn State on a lot of these different 
issues. I have focused on our areas that we would like to be 
able to do more, and they range, as I say, from basic research 
to my own personal interest in research, which is on some of 
the issues that are basically abuse of public health principles 
in world trade to the detriment of American farmers. Again, 
these are the kind of things in which the collaboration could 
be enhanced, but it gets out of the bioterrorism area.
    Senator Santorum. Well, you both mentioned the issue of 
worker training and the importance of that in our response, and 
I assume also in our notification, detection and the like. You 
mentioned the public health issue, our public health workforce. 
Just a question as to why you believe that we are in such--
compared to New York and I assume other States, since we are 
50th--that we are in such a bad state here in Pennsylvania. I 
mean, that somewhat surprised me, given other States that we 
are comparing ourselves with. So I would ask the question why, 
and then to Dr. Steele just a general question on the issue of 
workforce training and things that we might be focusing on 
here. My guess is we will be doing a major piece of education 
bill following up on--there was a commission that was put 
together headed by the former head of Boeing, Norm Augustine, 
who put forth ideas on how to get more kids interested in math 
and science and the importance of that. So my guess is we will 
be doing something along those lines. So if you can think about 
ideas that might respond to this issue in that context--can you 
talk about the public health issue first?
    Dr. Goldstein. I'm in the Commonwealth 5 years now. I was 
surprised at those figures, as well. We have spent a lot of 
time and effort in our Center for Public Health Practice trying 
to understand why. Part of it is now you count the numbers. The 
State Department of Health would tell you, ``Well, it is not 
quite as bad as that looks,'' but now you do the count does not 
explain it all. We are so far behind everybody that even if you 
counted the public health workforce somewhat differently, we 
would still be 48th or 47th.
    The key issue from the point of view of this hearing is 
that the problem is mainly in our rural areas. We have some 
very good public health workforce groups in Philadelphia, 
Allentown, and other areas--Pittsburgh, certainly, Allegheny 
County. The professionalism of the State Department of Health 
is excellent, in my opinion, but there are just too few folks 
and they are too busy, and when you get anything added to it, 
they are simply not going to be able to respond.
    Senator Santorum. Well, I guess my question is why is the 
funding in Pennsylvania so disparate from the funding in New 
York? I mean, is it State policy?
    Dr. Goldstein. It is our States that make the decision.
    Senator Santorum. OK.
    Dr. Steele?
    Mr. Steele. Senator, the workforce issue, I think--and I am 
going to confine my comments to the college graduate--
obviously, it is much, much broader than that, but a young 
person graduating from college has options, as I pointed out, 
just simply looking at the numbers, and fundamentally they are 
going to go where they see opportunity, and our challenge is at 
the youngest age possible, and the literature would suggest by 
the third or fourth grade if you want to get a young girl 
interested in a career in math or science. So we need to start 
as early as possible to help these young people understand that 
there are attractive, viable careers out there in areas such as 
biocontrol, security, molecular biology, nanotechnology, 
whatever.
    As I said in my comments, it is in the public good to do 
that, and particularly in the food and fiber sector. And you 
can never do enough of it, and the numbers and the demographics 
are, quite frankly, working against us right now.
    Senator Santorum. Yes. One of the things that has struck me 
in the these reports is showing that the number of engineers 
that we are graduating has basically been flat over the past 
couple of decades, which China now graduates almost 10 times 
more engineers than we do. If you consider the fact that 
technology jobs are the future of any economy, what economy is 
going to succeed when China, India and others--and even 
countries much smaller than we are, are graduating more folks 
in the technical fields.
    That is a big issue for us. If you have any comments on 
specifically how we deal with that, I would be anxious to hear 
them.
    Mr. Steele. I, a few months ago, was in China and had the 
opportunity to address a freshman class at a university there, 
an agricultural university of 9,200 young people, 9,200, and we 
read in the papers about the hot China economy growing at 
eight, 9 percent clips. When you go over there, you see it 
right in front of your eyes, the investment that is being made 
in their educational system, and their goal, which was so 
clearly stated to me, was to have 50 percent of their 18-year-
olds go on and get a university education versus--and I believe 
it was something on the order of 18 percent right now, and they 
are just investing heavily into their science and engineering 
infrastructure. And these young people are understanding and 
seeing that there are career opportunities available, and that 
is in part why we are not seeing as many of them coming to the 
United States, as well.

    Senator Santorum. Very good. Thank you, gentlemen. I 
appreciate your testimony.
    While the final panel is coming forward, let me do a couple 
of housekeeping things. First, I had asked the President of the 
Pennsylvania Farm Bureau, Carl Shaffer, to be here today to 
testify, but he is out of the State on another mission and 
could not be here. I just wanted to thank him for taking the 
time to prepare a statement, and I would like to enter that 
statement in the record and thank him for the great--again--
cooperative work that we have done with him and the 
Pennsylvania Farm Bureau in representing the interests of 
Pennsylvania agriculture.
    [The prepared statement of Mr. Shaffer can be viewed in the 
appendix on page 134.]
    Senator Santorum. Second, I just want to introduce State 
Senator Noah Wenger, who is here today. Senator Wenger is a 
member of the Senate Republican leadership in the State Senate 
and is a great friend of Pennsylvania agriculture, former 
chairman of the agriculture committee in the Senate of 
Pennsylvania. So thank you, Senator, for being here.
    Our final panel introduced--first is James Adams, who is 
the President of Wenger Feeds. Thank you, Mr. Adams, for being 
here; Walt Peechatka, who is the Executive Vice president of 
PennAg Industries; Lew Gardner, who is a dairy producer from 
Galeton, up in the great northern tier; and Keith Masser, who 
is the President of the Pennsylvania Cooperative Potato 
Growers. Thank you all for being here.
    Mr. Adams, would you proceed?

  STATEMENT OF JAMES ADAMS, PRESIDENT, WENGER FEEDS, RHEEMS, 
                          PENNSYLVANIA

    Mr. Adams. Thank you, Chairman Santorum, and thank you for 
putting this as a high priority on your agenda and visiting the 
State at our State Farm Show. Wenger's is a 60-year-old 
regional feed manufacturer that mostly delivers to poultry and 
swine farms, and we act as sort of a conduit for local grains 
and soybeans, convert those into a high-quality feed, and then 
distribute those out to numerous family farms. Sometimes we 
have up to 500 locations that we deliver to, so biosecurity has 
been important for us for many years, and specifically, having 
gone through the 1983-1984 avian influenza, we have 
disinfectors on our trucks and our servicemen practice very 
high standards of biosecurity. So we are very familiar with the 
on-the-farm, on-the-ground type of biosecurity that is 
important in this.
    The reason we have that is we need to protect our 
customers, whether they are a large corporation or they are a 
family farm, that we are not tracking around any type of 
disease. Also we own millions of laying hens ourselves, we want 
to ensure that we do not lose an income from that. So it is a 
very important subject to us.
    As I mentioned, we learned a lot of lessons in the 1980's 
from avian influenza. I guess I am a little more optimistic 
than some of the other panelists have been, in that I have seen 
what farmers and agricultural people can do in the face of an 
emergency. The industry in Pennsylvania actually was credited 
with jumpstarting the effort to control avian influenza in 1983 
by getting together cooperatively, even though they were 
competitors, and getting a lot of information together, where 
farms were, although at that time we did not have GPS systems. 
We actually did it with cardboard and county maps and sticking 
little pins in and things like that, but the industry did urge 
our local university and the PDA to put together a GPS system 
that we have used since 1983-1984. It actually gets instituted 
rather rapidly when an outbreak occurs and the industry again 
works cooperatively to try and address these situations.
    Anything can be improved, and I guess the message for you, 
if there is help that we can have, is basically in four areas, 
and they would be: detection, indemnity, vaccination and 
protection. With detection, we do have a relatively good 
system, and I think Secretary Wolff's written comments showed 
that we have about 240,000 AI samples that are submitted every 
year, that the industry is trying to safeguard and have a 
knowledge base of what is going on here.
    Those tests can always be upgraded. They need to be more 
rapid. They need to be more accurate. A lot of them tell you 
that you have an AI, but they do not specifically tell you what 
kind you have. So we can use better tests at any time. They 
should be very quick and hopefully inexpensive, so that they 
can be put into action rather quickly. When you have flock 
sizes of 200,000 or herds of 2,500, you need to have economical 
tests, also. With the indemnity program, I think Pennsylvania 
farmers are not coming with their hand out and saying, ``Bail 
us out of this,'' but what a good indemnity program does is it 
promotes people cooperating and joining a surveillance program, 
rather than just taking their animals to the normal market, 
driving down the road and spreading disease along the way. So 
it needs to be a specific program, but it needs to be effective 
enough that it gets the cooperation of most of the people that 
are in the industry, mostly to encourage their submission of 
samples.
    Another idea that goes along with that, that I think 
leverages the Government's money, is if we could have a 
subsidized business interruption program similar to crop 
insurance, so the Government is not paying the full amount, but 
they are paying enough that it encourages people to do that, 
because a lot of times, if it is one or two or three flocks, a 
company that is involved with that may be able to ward off that 
type of economic impact, but if three of those people are 
individual farmers and that is their sole income, they could be 
wiped out if a good indemnity program or a business 
interruption insurance is not in place.
    The third area is vaccination, and Pennsylvania has been in 
the past prevented from using vaccination effectively. We did 
stockpile some. We allowed another State to use it. The 
stockpile for Pennsylvania has not been re-created, but we 
would encourage a seed stock and research into how you can 
quickly multiply those viruses into effective vaccines, because 
it will take purification and replication to get a vaccine that 
is in a usable form that will not harm the animals that are 
going to be using it, so it would be a very specific 
stockpiling of the vaccine.
    The final area would be protection of the farms. I am not 
sure if the news got to you down in Washington, but we had a 
local animal-rights group break into a farm in the area, and 
that is trespassing, that is breaking and entering. And to be 
fair, local police are not sure what their boundaries are. 
State Police might not be familiar with agriculture. The local 
prosecutors may not know everything that they can bring to 
bear, and they may think, ``Well, all they did was they broke 
into a chicken house, what is the big deal?'' But if they were 
carrying disease into that farm and that became a reservoir for 
neighboring farms, or if they deliberately brought something 
into that farm, it could create a big problem. So we would like 
to see stiffer penalties on that, not have it be a misdemeanor. 
If somebody is actually breaking and entering and trespassing 
onto someone's property, whether they are a farmer or not, we 
think that should be seriously dealt with, and it will help the 
biosecurity efforts, not just the property rights.
    We again appreciate you coming here to Pennsylvania and 
holding these hearings, and just need a little bit of fine-
tuning in a lot of the programs that we have to leverage what 
we are already doing.
    [The prepared statement of Mr. Adams can be viewed in the 
appendix on page 117.]
    Senator Santorum. Thank you, Mr. Adams.
    Mr. Peechatka?

 STATEMENT OF WALT PEECHATKA, EXECUTIVE VICE PRESIDENT, PennAg 
              INDUSTRIES, HARRISBURG, PENNSYLVANIA

    Mr. Peechatka. Thank you. Good afternoon, Mr. Chairman. 
PennAg Industries Association appreciates the opportunity to 
offer comments this afternoon on behalf of our association. For 
your information, we represent more than 600 agricultural 
businesses, including, I might add, Wenger Feeds, as a member 
of our organization.
    I would like to start by reiterating and reemphasizing some 
of the comments that Mr. Adams just made to you on behalf of 
the poultry industry because it is very important information. 
We believe Pennsylvania is the leader nationally in the area of 
biosecurity on our poultry farms. After a devastating avian 
influenza outbreak in early 1980's, Pennsylvania's poultry 
industry began an aggressive effort to prevent future outbreaks 
and minimize their impact if they did occur. All commercial 
poultry operations in the State have been included in a data 
base that can be utilized by the industry and by our regulatory 
partners in the USDA and the Pennsylvania Department of 
Agriculture in the event of a disease outbreak.
    In addition to the excellent data base that we have 
available, the second component of the Pennsylvania program is 
the surveillance practice by our poultry industry. Each year, 
poultry producers send nearly 250,000 routine samples to our 
laboratories for diagnosis.
    I would like to turn to a few recommendations, and we would 
encourage your subcommittee and the U.S. Congress to consider 
the following items in addressing the issue of biosecurity and 
developing other initiatives which provide financial support to 
the agricultural community. First, increase the diagnostic 
laboratory capability in States with large concentrations of 
poultry and livestock. We encourage the Federal Government to 
provide additional financial support for the development of a 
BSL-3 laboratory at one of our Pennsylvania research 
institutions, so that the facility can be used for both 
research and for routine sampling and diagnosis.
    Second, we believe every State should be encouraged to 
develop a premise identification program along the lines of the 
program Pennsylvania has developed for the poultry industry. 
However, the issue of information confidentiality must be 
addressed when undertaking this effort.
    Third, agri-terrorism has been occurring with increasing 
frequency. Animal-rights groups have been breaking into 
research facilities and commercial poultry operations for the 
purpose of releasing animals and filming the contents of these 
facilities. These activities are strict violations of the basic 
tenets of biosecurity and place the owners of these operations 
in jeopardy of having disease introduced to their operations.
    To address this problem, we recommend that the Federal 
statutes be strengthened. Federal laws should be such that 
violations are recognized as a national threat to our country 
and to those that produce the food stuff to feed our 
population. I would also like to take this opportunity to 
commend the FBI for its ongoing efforts in the terrorism 
incidents in Pennsylvania. They have done a wonderful job with 
the existing statutes, and we believe that they could even do a 
better job if those statutes were strengthened.
    Fourth, we recommend that a significant portion of any 
Federal appropriation for addressing the bird flu threat be 
devoted to fieldwork and adequately preparing the agricultural 
community to prevent a bird flu outbreak or to promptly contain 
it, should it ever occur. While I am on the subject of bird 
flu, I want to take the time to emphasize the fact that it is 
important to recognize why bird flu incidences have occurred in 
Asia and Eastern Europe. Most of the countries which have 
reported outbreaks to date have humans and birds and animals 
cohabiting in the same house or in very close proximity. These 
birds and animals run loose, and if they are carrying a virus 
they are spreading it rapidly throughout the house of its 
owners and perhaps throughout the neighborhood.
    One of the many advantages of modern confinement animal and 
poultry operations, which we do have in this country, is that 
animals are confined in environmentally controlled barns, 
thereby minimizing the risk for infection. Confinement also 
eliminates the potential for wild birds and animals to spread 
the disease from flock to flock since the domesticated animals 
are isolated from the wild ones.
    Fifth, one of the most frequent disruptions of poultry 
production in Pennsylvania is the problem associated with live 
bird markets. These markets in some of our major cities are 
reservoirs for disease, which can be easily spread back to the 
farms that are supplying the birds.
    Last and No. 6, while most of our comments and 
recommendations today are centered on our animal and poultry 
agriculture, one remaining issue that also requires increased 
attention is our agrochemical industry. This industry, which 
PennAg also represents, provides the pesticides and the 
fertilizers to those in production agriculture. Agri-chemical 
facilities are also subject to the threat of terrorism. In this 
instance, also, we believe that the Federal statutes could be 
strengthened so as to discourage terrorism at these facilities. 
Penalties should be increased to minimize or eliminate the 
potential for terrorism against this industry.
    We appreciate the opportunity to offer these comments, and 
I stand ready to answer questions you may have. Thank you.
    [The prepared statement of Mr. Peechatka can be viewed in 
the appendix on page 122.]
    Senator Santorum. Thank you.
    Mr. Gardner?

STATEMENT OF LEW GARDNER, DAIRY PRODUCER, GALETON, PENNSYLVANIA

    Mr. Gardner. Thank you very much, Senator Santorum, for 
inviting me here and holding this hearing on biosecurity. I 
would like to take this opportunity as a dairy producer in 
Pennsylvania to thank you for your effort in MILC legislation 
that is in progress and hopefully signed by the end of this 
month. I am a dairy farmer from Potter County, Pennsylvania, 
and we operate a 250-cow farm with my wife and my two sons, and 
the safety and security of the Nation's milk supply is of the 
utmost importance to the U.S. industry and dairy producers in 
the United States, as well as Pennsylvania and all over.
    The dairy industry partners have been working closely 
together for the last several years to develop initiatives that 
would address biosecurity challenges in the dairy industry. 
Biosecurity is an important aspect of ensuring a safe food 
supply and protecting our animals' health. My cooperative, 
Dairy Farmers of America, has taken a number of initiatives in 
recent years to secure their milk supply throughout the 
production and processing chain, and I have provided some 
details in my written testimony of that fact.
    Dairy farmers have begun to adopt practices that will 
minimize opportunities to intentionally tamper with their 
livestock and milk for biosecurity measures. Common sense must 
be used when developing and implementing biosecurity practices 
on farms. In Pennsylvania, the vast majority, 85 to 90 percent 
of our dairy farmers, milk less than 100 cows per farm. Small 
farms will definitely need some kind of a financial resource to 
help them implement the biosecurity practices and install the 
technology and surveillance systems that is proposed.
    About 25 percent of our farmers in Pennsylvania are, 
because of religious belief, Amish or Old Order Mennonites and 
do not use electricity. That should be taken into 
consideration. They are a vital part of our dairy industry. The 
implementation of Federal biosecurity regulations must be in 
sync with State regulations and other regulatory agencies. I 
will give you an example of that. As a dairy producer, my farm, 
my milk house and my milk tank must be open for inspection by 
U.S. Public Health 24 hours a day. If a U.S. Public Health 
rating officer comes to my farm and my milk house is locked and 
my bulk tank is locked, then I could receive a zero score on a 
U.S. Public Health rating which would jeopardize my ability to 
market my product. So what I am saying is common sense must 
prevail. I think U.S. Public Health says that if they have a 
key, then that is all right. There are 10,000 dairy farmers in 
this State and six rating officers. That is a lot of keys for a 
lot of people to carry.
    Dairy product safety and security measures have been in 
place at processing facilities; PMO regulations, drug residue 
testing on every tankerload of milk, milk tanker seals and 
tanker wash tags. If any one of those seals is tampered with or 
absent, that milk is rejected. HACCP procedures are in place in 
plants to ensure appropriate plant operations, employee 
screening and background checks and restriction to access to 
milk plants. More work needs to be done on that. We need more 
work done on USAID programs. They need to be made mandatory and 
resources must be made available for the public sector to 
accomplish these program goals within 3 years.
    Materials need to be developed to aid dairy farmers 
understanding the need for biosecurity practices. Penn State, 
through their extension program, could play an active role in 
this. National biosecurity practices must be developed and 
coordinated by individuals who understand the industry with the 
goal of implementing reasonable and practical guidelines. 
Federal and State resources must be made available to help 
dairy farmers offset the cost of implementing practices and 
installing technology that is available to accomplish this. 
Federal regulatory agencies should recognize the efforts and 
capabilities of their State partners in developing and 
implementing on-farm security measures.
    In conclusion, the dairy industry partners recognize the 
need for enhancing biosecurity practices throughout the 
industry and look forward to working closely together with our 
Federal and State partners to accomplish our goals. I want to 
thank you very much for this opportunity to appear before you. 
I look forward to your questions or comments.
    [The prepared statement of Mr. Gardner can be viewed in the 
appendix on page 125.]
    Senator Santorum. Thank you, Mr. Gardner.
    Mr. Masser?

STATEMENT OF KEITH MASSER, PRESIDENT, PENNSYLVANIA COOPERATIVE 
            POTATO GROWERS, SACRAMENTO, PENNSYLVANIA

    Mr. Masser. Thank you, Chairman Santorum. On behalf of 
production agriculture, the Pennsylvania Potato Growers Co-op 
and the National Potato Council, I thank you for allowing me to 
testify amongst these esteemed guests. I am the eighth 
generation in my family to farm in western Schuylkill County, 
Pennsylvania, and if I assume--according to the last panel 
here, I am probably a detriment to our economy. I did acquire 
an engineering degree from Penn State, and after working in 
that profession for a couple years, I thought I could serve my 
family better by going back and joining the family farming 
operation. So sorry, you guys, but I did not apply the 
engineering degree to its fullest extent. However, we did try 
and use it. We built a processing plant, so I'm basically 
involved as operating three companies as president of our 
family farming operation, where we grow 3,600 acres of crops 
and we distribute potatoes throughout the Mid-Atlantic region.
    Keystone Potato Products is a processing company that we 
just got launched this year through the help of some USDA 
initiatives and State initiatives. We are using methane gas to 
fire a boiler to produce steam to dehydrate potatoes. We are 
using these dehydrated potatoes and selling those ingredients 
to bakeries and pierogies and processed potato chips, and the 
Pennsylvania Potato Growers Co-Op is a marketing organization 
that we use to market growers' potatoes throughout 
Pennsylvania.
    In our farming operation, we use a third-party food safety 
inspection program called the American Institute of Baking. We 
do it voluntarily to help support some of the Government 
agricultural practices that are initiated by the U.S. Federal 
Insecticide and Rodenticide Act. We market a lot of people's 
potatoes throughout the country in Pennsylvania, and we do 
require that they send us confirmation that they are following 
the GATT procedures, basically that they are using the 
pesticides according to label, that they have sanitary 
conditions on their farm and that their produce is safe. There 
is this program that we do voluntarily, then there are some 
customers, such as AlDI's Supermarkets and Albertson's--they 
put out an initiative saying they require us to have these 
third-party food safety programs in place, although they are 
not enforcing them. They are buying from suppliers who do not 
have these programs in place.
    At Keystone Potato Products--we do have a third-party 
safety food program in place, and we chose a National 
Processors Association food safety program. We did this because 
of the many different third-party programs that are available. 
We chose the one that would encompass most of the companies we 
want to sell to. Campbell's Soups requires that particular 
auditing agency for us, so we selected it. Now, if we were to 
sell to Appleby's, they would choose Silica. These programs 
cost a lot of money, and we need to try to find within our 
industry some kind of consistency so that we can have one 
third-party agency that would encompass the different 
suppliers. That is a problem that I see surfacing through these 
third-party auditing programs, is that we could possibly have 
three third-party auditing programs at our company to service 
three different accounts.
    How do we have the smaller producers that we are involved 
with have a third-party food safety auditing scenario? It is 
expensive. The primary expense is making it happen, but I have 
a full-time person on staff, and she is doing the 
recordkeeping, the inspection process, checking the rodent 
traps and making sure all the lights have safety protection, so 
there are glass covers so we do not have glass entering with 
product. It is tough--it is difficult for a small producer to 
be able to have a full-time person auditing their farming 
operation or their shipping operation. So one of the things 
that I can see coming about and that we would be initiating is 
have an organization like the Pennsylvania Potato Growers Co-Op 
select a third-party food safety auditing system and then help 
the growers that are members to perform these practices and 
have that take place.
    What I think the Government--needs to take place here, is 
to protect from the accidental and forceful introduction of a 
pest. If one would remember back, the Irish Potato Famine was 
an event that significantly impacted our industry, and many of 
the Irish immigrants that came to this country were as a result 
of that famine, and that was caused by a fungal disease called 
Late Blight. We still have problems with that disease, and we 
need to continue with our research dollars to help keep that 
disease in check.
    We need to have our borders protected from pests like 
potato wart and Ralstonia. Ralstonia is a disease that enters 
this country through--and it did recently--through geraniums, 
imported geraniums. This causes brown rot in potatoes and it 
could devastate our crop. I got concerned when I saw some 
personnel being taken from APHIS and getting taken and taken 
into the Homeland Security Agency. We need to make sure that 
people in the Homeland Security are trained to those standards 
that APHIS has in their knowledge to make sure we have our 
borders protected from the introductions of those accidental 
pests, and those types of pests could be introduced forcefully, 
as well. That could tear up our industry.
    So basically those are the concerns I have, and I would 
able to answer questions at any point that is appropriate, and 
my written testimony is presented, and thank you very much.
    [The prepared statement of Mr. Masser can be viewed in the 
appendix on page 131.]
    Senator Santorum. Thank you, Keith, appreciate that, and 
thank you all of you for your much fuller written testimony. 
All of that testimony will be entered into the record. Just a 
couple of questions because we are running a little late--you 
mentioned, Mr. Adams, the issue of vaccinations and problems in 
your testimony. You mentioned problems with international 
restrictions on vaccinations. Can you elaborate as to what the 
problem is in that regard?
    Mr. Adams. As I understand it, there are certain diseases 
that are recordable diseases, and we have been fortunate that 
they have split up avian influenza into just--the highly 
pathogenic ones are the reportable ones. But most countries do 
not want a country that they would import from to use an avian 
influenza vaccine, because what I have been told is they feel 
that they would not know when you have a real disease and when 
you do not, but we feel that with modern vaccines, one, you 
would use a killed vaccine which would not replicate; the other 
was, with some of the technologies, you can put a marker on the 
vaccine so that you could go back, and if you drew blood from 
that bird or got tissues, you would able to tell whether it was 
a natural infection or if it was a vaccinated virus that was in 
there. So we feel the technology has outpaced what the old 
trading laws were.
    I know we have had conversation, and we had a 
presentation--I think here--for USDA to help us get that 
message across, and some countries just say, ``Well, that is 
our law and that is how we are going to follow it.'' So I think 
it falls in the trading area.
    Senator Santorum. Is it, in this case, just a matter of 
either a convenient way for a non-tariff barrier or a true 
misunderstanding of the science? Which do you believe it is?
    [Laughter.]
    Senator Santorum. OK. You have answered my question.
    Mr. Adams. I think a lot of it is a trade barrier problem.
    Senator Santorum. Yes. OK. You have answered my question.
    Mr. Adams. Because some countries have used it very 
effectively. Italy used it very effectively, and there is no 
problem, so it has----
    Senator Santorum. You say they used it?
    Mr. Adams. They used a killed vaccine in Italy to stem 
their avian influenza, and also this last round up in 
Connecticut, the United States got to use vaccine, and part of 
that has been because they started to look--because of the size 
of the United States, they are looking more at regionalization, 
allowing that if you have avian influenza in one part of the 
country, it does not eliminate exports from the rest of the 
country. So we have made some progress in that area, but it is 
still--a lot of it is not based on science, and that is what we 
should go toward.
    Senator Santorum. You mentioned the area of detection, and 
I know you, Mr. Masser, just talked about that, too. Have you 
noticed--and I know we just appropriated money for detection in 
avian flu--but have you noticed over the last few years since 
terrorism and bioterrorism has come much more to the fore, an 
improvement in detection of pathogens by the governmental 
entities in your field?
    Mr. Peechatka. I agree with what Mr. Adams just said. 
Probably one of our researchers from the previous panel would 
be in the best position to answer that, but I think, by and 
large, there has been an increase.
    Senator Santorum. I would like to know what the folks who 
are actually out there working feel, how they feel, whether you 
sense that there is a better system out there.
    Mr. Adams. Well, as I mentioned, and I think several others 
had it in their written testimony, Pennsylvania is doing 
240,000 avian influenza samples already. That is partly imposed 
on us by States where we want to sell our products to, but 
partly it is self-imposed, that the industry wants to know 
where avian influenza is. So for us to have greater detection, 
we would have to have more testing done.
    I think you probably saw the headlines where the National 
Chicken Council just mentioned or just announced that they are 
going to be testing every flock that goes to slaughter for 
avian influenza. So that will be millions and millions of birds 
a year. People could criticize it and say it is after the fact, 
but AI can move so quickly that that is still an important 
piece of information that you can then work backwards in the 
regions and see what is going on. But to get more detection, 
I'm not sure. What we would like is that it is more rapid, 
because a 1-day delay in avian influenza management, once it is 
already here, and that management is so critical, and we 
learned that lesson too well. We started acting in Pennsylvania 
very, very quickly, and you could see from the data we went 
from--I think it was a $65 million-dollar price tag and 17 
million birds lost, to the last outbreak that we had was one 
farm, 200,000 birds, and if it was $400,000, I would be 
surprised. So we have learned a lot of lessons. We are not 
perfect, and we could get surprised at any time, but we have a 
pretty good system in place, but you have to act very quickly.
    Even in 1983-1984, and I know in some of the Delmarva 
incidents, the companies have taken the expense to put down the 
very first flocks, and they said, ``We do not care about 
government help or anything. We just think it is the right 
thing to do,'' to act so quickly that they will just get rid of 
the first two sentinel flocks that are out there. Speed is what 
we need, so in detection we need a research into new detection 
methods that are very specific for H5N1 or H7N2 or H5N2, 
whatever the culprit is at that time, and not have a vague, 
``Yes, you have AI, but we really do not know what kind it 
is.''
    Mr. Masser. I think the detection or the technology has 
gotten better, but logistics has gotten slower. For instance, 
we have a quarantine on golden nematode in New York State, 
which is a nematode pest that affects potatoes and potato 
production that was introduced from Europe back in the 1800's, 
and there is a USDA program that is in place. It is properly 
funded, but it takes a lot of priority to make sure it is 
properly funded, to quarantine and make sure that pest is in 
place.
    So what I am talking about then is it requires samples. We 
get our farm sampled periodically to make sure that the 
nematode is not moving. So you test around the area to make 
sure that the nematode has not got introduced into neighboring 
counties and States. We just got involved in a government 
contract shipping potato flakes to Moldavia. It took 12 days 
for the Federal Government to test our samples and to get the 
results back before we could ship.
    I do not think it takes that long to test the flake for 
microbes, but it is the logistics of making it happen that 
takes the time, and that takes money to have testing. Our 
samples had to get sent to Florida and have it tested and get 
the results back. So more testing facilities or having the 
technology being distributed so our products can get tested 
faster would be appropriate.
    Senator Santorum. Mr. Gardner, you mentioned your concern 
about information on biosecurity--information materials on 
biosecurity. As you may have seen, Mr. Azar from HHS, 
representing FDA, held up a little pamphlet talking about 
biosecurity in the milk area. Have you seen that pamphlet 
before?
    Mr. Gardner. I had not read it, but I have seen it. We have 
pamphlets we hand out, a kit, to all of our producers on the 
different agencies, the different procedures that are being 
held, selling, restricted access and those kinds of things that 
we have done. That is the kind of information I am talking 
about, basic information for the producers would be important.
    Senator Santorum. My question is do you feel like the 
Federal agencies involved, the universities involved, are 
providing enough information to you with respect to biosecurity 
in your operations?
    Mr. Gardner. I think the agencies are working together very 
well with providing the information, all the agencies together. 
I think the one handicap we have now is time. The animal 
identification process has been very slow in this country. 
Dairy--most of our animals are identified. It is just a matter 
of centralizing that information so that if there is an animal 
that has a disease, that it can be tracked rapidly, and all of 
the animals need to be tracked with the beef and all of the 
animals, but that has run a little slower. It has come along, 
but we have to have a mandatory identification premise animal 
identification program that identifies the animal and the 
premises where it came from, and this takes coordination 
between the State and Federal Government and the other 
agencies.
    Senator Santorum. Do you agree with that?
    Mr. Adams. Yes, I think they have done a good job. It is a 
job that never ends. You get new producers that get involved, 
and older ones get out of the business. I think it is a three-
pronged thing. We need governmental help maybe to produce 
publications and things like that. We need universities to help 
distribute that, because they have a lot of meetings already 
set up, and the last thing we need is another meeting. So they 
can tag a biosecurity issue into one of those meetings, but the 
third, I think, is the responsibility of the industry to either 
take the publications or make their own, or dissect them and 
translate them into things that producers actually understand, 
and a lot of it has to be a show-and-tell--you know, this is 
what you should actually do--because many times you will sit 
and, if a program is at the end of a long day of other 
sessions, you are going to miss some of that material. So I 
think it is a constant, never-ending educational process that 
we have to do.
    Senator Santorum. Is the material being distributed in 
forms that are useful to you, not just pamphlets, but on the 
Internet, and that are accessible to you, maybe interactive?
    Mr. Adams. Yes. Right now I would have to say--and I hate 
to always bias this toward avian influenza, but I will anyway--
there are about maybe 10 sites right now that you could go to 
if you wanted to know what is happening in avian influenza, 
what biosecurity measures should you do. There is enough web 
sites out there that are very good. They have been put 
together, I would say, pretty rapidly, too, and they are very 
accurate, but you have to have the mentality that you want to 
go to the Internet to look for those things, and I would have 
to say that if the average age of a farmer is 58, I am not sure 
they are all going to be in touch with that, not that age is a 
determining factor in that, but maybe experience.
    Senator Santorum. It is a good indicator.
    Mr. Adams. Experience is, but I think there is a lot of 
material out there.
    Senator Santorum. Animal identification?
    Mr. Adams. In swine and dairy and beef, it seems to be a 
logical way to go. In the poultry area, we have a problem with 
thousands of animals in one load on a truck. We would look more 
toward facility identification, which there is some of that 
already, or maybe as a worst-case compromise is maybe some type 
of coop identification or something like individual bird 
identification. They have done some testing, and it then 
becomes a food safety problem, that the little tag or something 
that you put on gets in with the meat product because of the 
smaller size of a bird versus some of the other mammals that 
are out there.
    Senator Santorum. Thank you, gentlemen, very, very much for 
your testimony, and we are adjourned.
    [Whereupon, at 3:14 p.m., the subcommittee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                            January 9, 2006



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T0234.001

[GRAPHIC] [TIFF OMITTED] T0234.002

[GRAPHIC] [TIFF OMITTED] T0234.003

[GRAPHIC] [TIFF OMITTED] T0234.004

[GRAPHIC] [TIFF OMITTED] T0234.005

[GRAPHIC] [TIFF OMITTED] T0234.006

[GRAPHIC] [TIFF OMITTED] T0234.007

[GRAPHIC] [TIFF OMITTED] T0234.008

[GRAPHIC] [TIFF OMITTED] T0234.009

[GRAPHIC] [TIFF OMITTED] T0234.010

[GRAPHIC] [TIFF OMITTED] T0234.011

[GRAPHIC] [TIFF OMITTED] T0234.012

[GRAPHIC] [TIFF OMITTED] T0234.013

[GRAPHIC] [TIFF OMITTED] T0234.014

[GRAPHIC] [TIFF OMITTED] T0234.015

[GRAPHIC] [TIFF OMITTED] T0234.016

[GRAPHIC] [TIFF OMITTED] T0234.017

[GRAPHIC] [TIFF OMITTED] T0234.018

[GRAPHIC] [TIFF OMITTED] T0234.019

[GRAPHIC] [TIFF OMITTED] T0234.020

[GRAPHIC] [TIFF OMITTED] T0234.021

[GRAPHIC] [TIFF OMITTED] T0234.022

[GRAPHIC] [TIFF OMITTED] T0234.023

[GRAPHIC] [TIFF OMITTED] T0234.024

[GRAPHIC] [TIFF OMITTED] T0234.025

[GRAPHIC] [TIFF OMITTED] T0234.026

[GRAPHIC] [TIFF OMITTED] T0234.027

[GRAPHIC] [TIFF OMITTED] T0234.028

[GRAPHIC] [TIFF OMITTED] T0234.029

[GRAPHIC] [TIFF OMITTED] T0234.030

[GRAPHIC] [TIFF OMITTED] T0234.031

[GRAPHIC] [TIFF OMITTED] T0234.032

[GRAPHIC] [TIFF OMITTED] T0234.033

[GRAPHIC] [TIFF OMITTED] T0234.034

[GRAPHIC] [TIFF OMITTED] T0234.035

[GRAPHIC] [TIFF OMITTED] T0234.036

[GRAPHIC] [TIFF OMITTED] T0234.037

[GRAPHIC] [TIFF OMITTED] T0234.038

[GRAPHIC] [TIFF OMITTED] T0234.039

[GRAPHIC] [TIFF OMITTED] T0234.040

[GRAPHIC] [TIFF OMITTED] T0234.041

[GRAPHIC] [TIFF OMITTED] T0234.042

[GRAPHIC] [TIFF OMITTED] T0234.043

[GRAPHIC] [TIFF OMITTED] T0234.044

[GRAPHIC] [TIFF OMITTED] T0234.045

[GRAPHIC] [TIFF OMITTED] T0234.046

[GRAPHIC] [TIFF OMITTED] T0234.047

[GRAPHIC] [TIFF OMITTED] T0234.048

[GRAPHIC] [TIFF OMITTED] T0234.049

[GRAPHIC] [TIFF OMITTED] T0234.050

[GRAPHIC] [TIFF OMITTED] T0234.051

[GRAPHIC] [TIFF OMITTED] T0234.052

[GRAPHIC] [TIFF OMITTED] T0234.053

[GRAPHIC] [TIFF OMITTED] T0234.054

[GRAPHIC] [TIFF OMITTED] T0234.055

[GRAPHIC] [TIFF OMITTED] T0234.056

[GRAPHIC] [TIFF OMITTED] T0234.057

[GRAPHIC] [TIFF OMITTED] T0234.058

[GRAPHIC] [TIFF OMITTED] T0234.059

[GRAPHIC] [TIFF OMITTED] T0234.060

[GRAPHIC] [TIFF OMITTED] T0234.061

[GRAPHIC] [TIFF OMITTED] T0234.062

[GRAPHIC] [TIFF OMITTED] T0234.063

[GRAPHIC] [TIFF OMITTED] T0234.064

[GRAPHIC] [TIFF OMITTED] T0234.065

[GRAPHIC] [TIFF OMITTED] T0234.066

[GRAPHIC] [TIFF OMITTED] T0234.067

[GRAPHIC] [TIFF OMITTED] T0234.068

[GRAPHIC] [TIFF OMITTED] T0234.069

[GRAPHIC] [TIFF OMITTED] T0234.070

[GRAPHIC] [TIFF OMITTED] T0234.071

[GRAPHIC] [TIFF OMITTED] T0234.072

[GRAPHIC] [TIFF OMITTED] T0234.073

[GRAPHIC] [TIFF OMITTED] T0234.074

[GRAPHIC] [TIFF OMITTED] T0234.075

[GRAPHIC] [TIFF OMITTED] T0234.076

[GRAPHIC] [TIFF OMITTED] T0234.077

[GRAPHIC] [TIFF OMITTED] T0234.078

[GRAPHIC] [TIFF OMITTED] T0234.079

[GRAPHIC] [TIFF OMITTED] T0234.080

[GRAPHIC] [TIFF OMITTED] T0234.081

[GRAPHIC] [TIFF OMITTED] T0234.082

[GRAPHIC] [TIFF OMITTED] T0234.083

[GRAPHIC] [TIFF OMITTED] T0234.084

[GRAPHIC] [TIFF OMITTED] T0234.085

[GRAPHIC] [TIFF OMITTED] T0234.086

[GRAPHIC] [TIFF OMITTED] T0234.087

[GRAPHIC] [TIFF OMITTED] T0234.088

[GRAPHIC] [TIFF OMITTED] T0234.089

[GRAPHIC] [TIFF OMITTED] T0234.090

[GRAPHIC] [TIFF OMITTED] T0234.091

[GRAPHIC] [TIFF OMITTED] T0234.092

[GRAPHIC] [TIFF OMITTED] T0234.093

[GRAPHIC] [TIFF OMITTED] T0234.094

[GRAPHIC] [TIFF OMITTED] T0234.095

[GRAPHIC] [TIFF OMITTED] T0234.096

[GRAPHIC] [TIFF OMITTED] T0234.097

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            January 9, 2006



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T0234.098

[GRAPHIC] [TIFF OMITTED] T0234.099

[GRAPHIC] [TIFF OMITTED] T0234.100

      
=======================================================================


                         QUESTIONS AND ANSWERS

                            January 9, 2006



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T0234.101

[GRAPHIC] [TIFF OMITTED] T0234.102

[GRAPHIC] [TIFF OMITTED] T0234.103

                                 <all>

</pre></body></html>
